<html>
<title> - AN AMBER ALERT NATIONAL SYSTEM</title>
<body><pre>[Senate Hearing 107-941]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-941

                     AN AMBER ALERT NATIONAL SYSTEM

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TECHNOLOGY, TERRORISM,
                       AND GOVERNMENT INFORMATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 4, 2002

                               __________

                          Serial No. J-107-101

                               __________

         Printed for the use of the Committee on the Judiciary


87-718              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

   Subcommittee on Technology, Terrorism, and Government Information

                DIANNE FEINSTEIN, California, Chairwoman
JOSEPH R. BIDEN, Jr., Delaware       JON KYL, Arizona
HERBERT KOHL, Wisconsin              MIKE DeWINE, Ohio
MARIA CANTWELL, Washington           JEFF SESSIONS, Alabama
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
                 David Hantman, Majority Chief Counsel
                Stephen Higgins, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     1
Hutchison, Hon. Kay Bailey, a U.S. Senator from the State of 
  Texas (ex officio).............................................     2
Hatch, Orrin G., a U.S. Senator from the State of Utah...........     4
    prepared statement...........................................    37
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     5
Leahy, Hon. Patrick J. Leahy, a U.S. Senator from the State of 
  Vermont, prepared statement....................................    46

                               WITNESSES

Callaway, Robbie, Chairman, Board of Directors, National Center 
  for Missing and Exploited Children, Alexandria, Virginia.......     6
Farrow, Joseph, Deputy Commissioner, California Highway Patrol, 
  Sacramento, California.........................................    13
Fritts, Edward O., President and Chief Executive Officer, 
  National Association of Broadcasters, Washington, D.C..........    11
Klaas, Marc, Sausalito, California...............................    16
Timmons, Sharon, Riverside, California...........................     8

                       SUBMISSIONS FOR THE RECORD

Callaway, Robbie, Chairman, Board of Directors, National center 
  for Missing and Exploited Children, Alexandria, Virginia, 
  prepared statement.............................................    24
Farrow, Joseph Deputy Commissioner, California Highway Patrol, 
  Sacramento, California, prepared statement.....................    31
Fritts, Edward O., President and Chief Executive Officer, 
  National Association of Broadcasters, Washington, D.C., 
  prepared statement.............................................    35
Klaas, Marc, Sausalito, California, prepared statement...........    39
Timmons, Sharon, Riverside, California, prepared statement.......    48

 
                     AN AMBER ALERT NATIONAL SYSTEM

                              ----------                              


                      WEDNESDAY, SEPTEMBER 4, 2002

                                       U.S. Senate,
     Subcommittee on Technology, Terrorism, and Government 
                                               Information,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Dianne 
Feinstein, Chairman of the Subcommittee, presiding.
    Present: Senators Feinstein, Hatch, Kyl, and Hutchison [ex 
officio.]

OPENING STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM 
                    THE STATE OF CALIFORNIA

     Chairperson Feinstein. This hearing will come to order.
    I would like to begin by welcoming everyone and apologizing 
for the change of time. This hearing was supposed to be this 
afternoon, but we got word that Secretary Rumsfeld was going to 
have a Members-only briefing and so we changed the hearing to 
this morning. That meant a lot of discomfort for our witnesses, 
who made a really heroic effort to be here.
    I want to particularly thank Nichole and Sharon Timmons, 
who took the red-eye all the way across the country last night 
to be with us, and Marc Klaas, who took a train early this 
morning to get to Washington from New York. We are very 
delighted to have you here.
    I have asked Senator Hutchison, who is the main sponsor--I 
am the cosponsor and she is the main sponsor of this 
legislation--to join us on the dais. Senator Kyl, who is the 
ranking member of this Subcommittee, is on his way.
    We are delighted also to have the Ranking Member of the 
overall Committee present with us today, and that is Senator 
Orrin Hatch, who has a great interest in this subject and was 
present yesterday at our press conference.
    I have joined in supporting this legislation because I 
truly believe it is going to save the lives of a number of 
children who are kidnapped by predators.
    What are AMBER Alerts? AMBER Alerts are official bulletins 
broadcast over the airwaves to enlist the public's help in 
tracking down abducted children who are facing imminent danger 
from their kidnappers. AMBER Alerts have really worked. I can 
give you many examples, but I am not going to do that because 
we have got living examples right in front of us.
    Each year, more than 58,000 children in the United States 
are abducted by non-family members, often in connection with 
another crime. The most dangerous type of child abduction, the 
abduction by a stranger--in that instance, fully 40 percent of 
children are murdered. Speed is crucial to any effective law 
enforcement response to these most deadly cases.
    According to a study by the United States Department of 
Justice, 74 percent of children who were abducted and later 
found murdered were murdered in the first hours after being 
taken. So AMBER Alerts have become a proven weapon in the fight 
against stranger abductions, especially in those cases where an 
abducted child is facing an imminent threat of harm.
    The program was named after 9-nine-year-old Amber Hagerman, 
who was kidnapped and murdered in Arlington, Texas, Senator 
Hutchison's State, in 1996. Nationally, since 1996, AMBER Alert 
has been credited with the return of 29 children to their 
families, including one case in which an abductor reportedly 
released the child after hearing the alert himself. In other 
words, he was on the highway with the child and he saw the 
signs and he stopped and let the child out of the car. That is 
rather dramatic testimony of how this can also be a deterrent 
to the crime.
    I am delighted that we have representation here from the 
California Highway Patrol because since the State of California 
first adopted AMBER Alerts just a month ago, the State has 
issued 13 AMBER Alerts. Now, of those 13, 8 involved abductions 
by strangers, 4 involved abductions by family members, and one 
was a misstep. Twelve of the 13 children were returned. Now, 
that is unbelievable statistical testimony. Although obviously 
the numbers are small, the fact that 12 were returned is really 
extraordinary.
    So, today, we are here to discuss a bill. It has three 
specific points, and I am going to let either Senator Hatch, 
the Ranking Member, or Senator Hutchison--I want to leave some 
material for them, so the way we are going to proceed is I am 
going to ask Senator Hatch if he would like to make a 
statement, and then Senator Hutchison, and then we will proceed 
to introduce the panel and hear from those of you who have come 
so far to be here.
    So, Senator Hatch, welcome to our Subcommittee. We are 
delighted to have you and thank you for your interest in this.
    Senator Hatch. Thank you, Madam Chairwoman. Why don't I 
wait for my statement and let you two major sponsors go first?
     Chairperson Feinstein. Well, that is very generous of you.
    Senator Hutchison, welcome to the Subcommittee. We are 
delighted to have you, and thank you so much for your 
leadership on this issue.

STATEMENT OF HON. KAY BAILEY HUTCHISON, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchison. Well, thank you, Senator Feinstein. I 
was so heartened when I heard that you were setting a hearing 
this week. I appreciate very much Chairman Leahy and Senator 
Hatch, the Ranking Member, agreeing to that because it does 
mean that we are on a fast track.
    It is my fervent wish that we would be able to pass our 
bill before the end of this session because I would hate to 
leave in October and have the months that we could be using to 
organize AMBER Alerts for interstate abductions to pass. So I 
am very pleased that you are holding this hearing, and I think 
that with Senator Leahy and Senator Hatch we will be able to 
make progress.
    I, too, want to thank all of the witnesses who have come to 
talk about this issue. Every single one of you has a personal 
story. You have had a part in the volunteer efforts so far that 
have been so successful, and now what Senator Feinstein and I 
want to do is just make it a little easier.
    This is a simple bill. It is not a massive, new 
bureaucracy. It is not a big expenditure, but it is just making 
sure that that harried law enforcement officer that is dealing 
with this crisis can make one phone call and not have to worry 
about contiguous States getting immediate notification. That is 
what we want to do and just connect the systems, and also be a 
resource for States that don't have systems now.
    Most States don't have systems. Even my home State of 
Texas, which started the AMBER Alert on a local level, doesn't 
have a statewide system. But it really came home to all of us 
when we saw the statewide system in California be so effective 
in helping to capture the abductor of the two teenage girls who 
were probably 5 minutes from being killed, but because of the 
quick notification and the help of people on the highways, were 
able to be saved.
    Let me just first say that without the National Center for 
Missing and Exploited Children and the National Association of 
Broadcasters, we would not have the 28 success stories that 
Senator Feinstein just mentioned. And that was all done with a 
little bit of Federal funding, but a whole lot of volunteer 
effort. We appreciate the National Center and the National 
Association of Broadcasters working with us to make sure that 
our bill coordinated and moved forward rather than in any way 
hampering the efforts that are already in place.
    I am particularly pleased that Nichole Timmons is with us 
today because she is one of our most recent AMBER Alert success 
stories--10 years old, from Riverside, California. The alert 
was delivered in California, but also in neighboring States. Of 
course, we know that Nichole was found in Nevada, and what a 
wonderful opportunity for us to be able to have Nichole and her 
mother here with us today. I think that Nichole's case shows 
the need for the national AMBER network.
    What our bill would do is establish an AMBER Alert 
coordinator within the Department of Justice to assist States 
with their AMBER Alert plans, all the States that don't have 
them, and to try also to set minimum voluntary standards that 
would help the States coordinate.
    All of us are very cognizant of the fact that we could 
overdo this and have so many alerts that people stop looking at 
the signs. We do not want to do that, so the AMBER Alert 
coordinator would set standards and make the decision based on 
those standards.
    Also, our bill, second, does provide for a matching program 
for setting up AMBER Alert programs or necessary equipment, 
such as signage that was so effective in California and is now 
being used in other States at a very minimal cost.
    The AMBER Alert gives the public a chance to do something 
positive. We all have this clutch. All of us are parents. We 
see a missing child story and all of us go, oh, my God. That is 
the worst thing that could happen to a parent is to find that 
their child has been abducted. So we wanted to channel this 
public grief into a positive purpose, and that is what the 
AMBER Alert has done.
    Our AMBER Alert bill actually is named for Amber Hagerman, 
who was murdered in Arlington, Texas, in 1996. But it also 
stands for what we are trying to do: Americans Missing 
Broadcast Emergency Response. That is what our AMBER bill 
stands for.
    So we are very pleased to have introduced our bill 
yesterday, our first day back in session. We have 26 
cosponsors, equally divided between Republicans and Democrats. 
And my belief is that as soon as this bill is marked up and 
comes out of Committee, we will pass it unanimously through to 
the Senate, go to the House, and I think the President will be 
able to sign this bill that ties everything together.
    It is such a minimal effort for such a huge reward. When we 
can save 1 child or 10 children or 28 children because of a 
broadcast or a signage, it is so rewarding to be able to say 
this simple fact and the spirit of the American people wanting 
to help this family in distress will make a difference.
    So I thank you, Senator Feinstein, for moving forward, and 
once again I thank all of you for the support. I thank Senator 
Hatch and Senator Leahy for helping us expedite this bill and 
making it a priority for our country.
    Thank you.
     Chairperson Feinstein. Thanks very much, Senator.
    Senator Hatch.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Well, thank you, Madam Chairwoman. I want to 
thank you and the distinguished Senator from Texas, Senator 
Hutchison, for your work in this area. It means a lot to me 
personally and it means a lot to all of my fellow Utahns, and 
of course I think everybody in this country, to have this very 
meaningful legislation pass.
    I think enough has been said about it, but I just want to 
say that Elaine and I are parents to 6 children and 
grandparents of 20. I have to tell you I remember when our kids 
were being raised, when they were growing up, whenever we went 
anywhere publicly, I just about went crazy trying to keep track 
of them at all times.
    I think the problems of today are much more problematic 
than they were back then. I can just sympathize and empathize 
with parents who are worried about their children in this 
modern day and age, with some of the people that are doing some 
of these things. This bill will go a long way toward helping us 
to try and at least do what we can initially to try and stop 
what is going on. So I want to thank both of you for holding 
this hearing.
    I will put the rest of my remarks in the record, but I 
would like to suggest to you, Madam Chairwoman, that you are 
holding this hearing today. We ought to talk to the Chairman of 
the Committee and I will talk to our folks on our side. I think 
we ought to have this on the markup tomorrow. Is that what you 
are going to do?
     Chairperson Feinstein. Yes, I had mentioned that to my 
staff and my hope is that we can arrange that. Senator Leahy 
has been very cooperative and very helpful.
    Senator Hatch. I am sure he will be, and I think everybody 
on the Committee will be. What we should do is mark it up 
tomorrow, get it immediately reported to the floor, and get it 
out before this week is over. It will take some time to 
implement this in the way it should be implemented. That way, 
we would save every possible minute we can.
    I want to just thank you for your leadership in this area. 
You and Senator Hutchison have just been tremendous leaders on 
this, and we will do everything in our power to help get this 
done.
    I want to thank our witnesses and welcome all of you here. 
I know that it has been a very difficult thing for you to come 
and fly all night, and for, Mr. Klaas, whom we have respected 
so much on this Committee, to get here this morning. But each 
one of you has made a real difference in these types of issues 
throughout our country. I have respect for all of you on this 
panel and it is tremendous for all of you to be here to help us 
to understand this better and, of course, to do the things that 
we need to do.
    Thanks, Madam Chairman.
    [The prepared statement of Senator Hatch appears as a 
submission for the record.]
     Chairperson Feinstein. Thank you very much, Senator Hatch.
    I would now like to acknowledge the presence of the ranking 
member of this Subcommittee. I came on this Subcommittee when 
Senator Kyl was the Chair of the Subcommittee, and so we have 
worked together, I think, for at least 6 years as either Chair 
or ranking member of the Subcommittee.
    There has been no one that has been better for me to work 
with than Senator Kyl, and I know he is very interested in this 
issue and I am delighted that you are here. I asked Senator 
Hutchison to join you and your staff said they were certain you 
wouldn't mind if she sat right here.
    Senator Kyl. Absolutely.
     Chairperson Feinstein. If you would like to make some 
remarks, Senator?

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you, Madam Chairman. Just to say that 
one reason we have been able to cooperate so well is because 
Senator Feinstein always has very good ideas. It has been easy 
to work with Senator Feinstein because of the innovations that 
she has come up with, including with Senator Hutchison and 
others on this important issue.
    I came to hear the witnesses, not that I don't appreciate 
my colleagues' comments, but we have talked and I am very 
supportive and certainly concur with what Senator Hatch was 
just saying on the speed with which we could try to move this 
legislation.
    Therefore, Madam Chairman, instead of commenting further, I 
will defer my remarks, commend you for holding the hearing, 
Senator Hutchison for her statement, and look forward to 
hearing from each of you.
    Chairperson Feinstein. Well, thank you very much, Senator.
    Now, we will proceed to the best part, which is hearing 
from our witnesses. We are going to begin with Robbie Callaway. 
Robbie Callaway is the Chairman of the National Center for 
Missing and Exploited Children. That Center has helped to 
recover more than 48,000 children and has gained wide 
recognition as a valuable resource for missing and exploited 
children.
    In the fall of 2001, the Center launched the AMBER Plan to 
assist cities and towns across the United States in creating 
emergency alert towns; in other words, just what we are trying 
to do here. To date, the AMBER Plan has been credited with 
recovering 30 children.
    Robbie is accompanied, I believe, by Joanne Donelan, who is 
the Center's AMBER program manager.
    Mr. Callaway, we are delighted to have you.
    I am going to ask all the witnesses if you could try and 
limit your remarks to 5 minutes, we will place any written 
statements in the record, but it will give us a little more 
time to ask some questions.

  STATEMENT OF ROBBIE CALLAWAY, CHAIRMAN, BOARD OF DIRECTORS, 
NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN, ALEXANDRIA, 
                            VIRGINIA

    Mr. Callaway. Thank you very much, Madam Chairwoman and 
members of the Subcommittee.
    I can't help but reflect as I sit at this table one of the 
first times I ever sat at this table I didn't have gray hair 
and neither did you, Senator Hatch, and it was about 22 years 
ago when John Walsh lost his son and we came up here to try to 
get Congress to address the issue.
    The difference in then and now is amazing. Listening to you 
speak and listening to what you are talking about, and having 
felt the agony of John and knowing the agony that Marc Klaas, 
and sitting here with joy and looking at this young girl, this 
is not part of the testimony, but the joy here versus the pain 
that Marc and John have felt--what you are going to do is help 
make more of this, the joy. So we are very excited to support 
it from the National Center.
    The recent recoveries of kidnapped children have shown that 
the AMBER plan works and that communities need to adopt the 
program. We support the legislation because we think every 
community should have the same possibility that they had in 
California with those two young girls that I don't care what 
anyone says, had it not been for the AMBER plan, those two 
girls would never have been found alive.
    Having been involved in this issue since the original 
Missing Children's Act, I have seen too much of the other. And 
to see those two girls survive--you had some commentators 
criticize the AMBER plan or say should we have done it. Those 
girls would not have been found alive. You know that.
    Statistics will show you that of kidnapped kids, 74 percent 
of those kids that are found murdered would have been murdered 
within the first 3 hours. In the old days, we used to think it 
was a big deal at the National Center for Missing and Exploited 
Children 18 years ago when we got posters in video stores that 
were there 45 days after a kid was missing. You have the 
ability to get that out within the first hour and to save kids. 
This is about saving lives.
    We endorse the legislation because the Center has a major 
history here, as you know. We have supported successful 
programs. The AMBER plan was not created at the Center, but it 
was supported and endorsed by the Center; it was pushed by the 
Center.
    As Senator Hatch knows, this is not my full-time job. I am 
not paid to say this. This is my volunteer activity. I work for 
Boys and Girls Clubs of America. I have devoted my life to 3.3 
million kids that we are serving. This is my passion, this 
issue, and I am very excited about it.
    Joanne Donelan--as we say, we hired her at the National 
Center 2 years ago to do nothing but the AMBER plan. She is 
part of the reason that 30 kids have been found, and that we 
can smile and see Nichole. I think Sharon is going to talk even 
more about that than I will.
    The National Center created this AMBER Alert kit. I think 
copies are going to be made available for everybody on the 
Committee. This has been put out to law enforcement, to the 
broadcasters, to others, and if you don't have one, we need to 
get one to each of you.
    What does it have in there? Part of what it has in there--
and I happened to listen to one of the news stories last night 
and they said, well, we can't be putting these alerts all the 
time. Nobody wants to put these alerts out all the time. We are 
talking about maybe two a week across the entire United States 
of America. Do you want two Nicholes or do you want the 
alternative?
    In the old days, when a child was found it was the greatest 
joy we ever had. This helps, you help. What this will do is 
help law enforcement to confirm that a child has actually been 
abducted. It is not a runaway, it is not even a parental 
dispute. The child has been abducted. Law enforcement is fairly 
certain that there is a chance of serious harm and possibly to 
the child.
    Third, there is descriptive information about the vehicle 
so that they put it out there, that somebody can actually find 
the car, or the car that the child is in. The child has to have 
been threatened. We know that.
    The National Center has worked with the National 
Association of Attorneys General, the National Sheriffs 
Association, the International Association of Chiefs of Police 
and the Fraternal Order of Police in an effort to promote the 
national implementation of this program.
    You have already talked about the 30 kids that have been 
recovered. Today, there are 18 statewide AMBER plans. There are 
55 plans, in total; 18 of them are statewide. A lot of that has 
happened over the last year.
    Why do we support this legislation? It allows you to go 
across State lines. California is a big State. As you know, in 
some cases kids will be going across State lines--Utah. They 
may be going into another State. Texas--I know that was a big 
issue for you, Senator Hutchison, Texas, and possibly going 
into another State.
    We are encouraged by the AMBER coordinator at the Justice 
Department. It is a great idea. Honestly, we strongly encourage 
you before you mark the bill up tomorrow to add one amendment 
to it and put in there that that AMBER coordinator at the 
Justice Department work with the National Center for Missing 
and Exploited Children, possibly even be placed there.
    The Center has been doing this for 20 years. Joanne has 
been hired to do this work. The Justice Department likes 
working with the Center. And, again, we are talking about 3 
hours from the time it takes for the person from the Justice 
Department to make the call over there. That person should be 
there. They should be right there with all the resources that 
the National Center has.
    I see the red light is on and I just want to say thank you. 
Again, it is such a different experience than it was over 20 
years ago when we first started talking about this issue. And 
just for the two of you, it was a woman Senator at the time, 
Senator Paula Hawkins, who led the way back then, and Senator 
Hatch and Senator Thurmond and Senator Leahy and Senator Biden 
jumped on this issue and they have been with us ever since.
    Thank you very much.
     Chairperson Feinstein. Thank you very much, Mr. Callaway, 
and let just say this. I didn't mention your Boys and Girls 
Clubs work, but I wish there were more people like you who 
really are willing to dedicate their lives to young people. We 
need that very much in this country. So I just want to say 
thank you very much.
    Mr. Callaway. Thank you.
    [The prepared statement of Mr. Callaway appears as a 
submission for the record.]
     Chairperson Feinstein. The next witnesses will be Sharon 
and Nichole Timmons. Sharon Timmons comes from Riverside, 
California. She is a sales representative for United Road. That 
is a trucking company that transports automobiles. She is also 
the mother of 10-year-old Nichole.
    I would like to make a special note that Sharon and Nichole 
took a red-eye flight, as I mentioned, to be here. That is 
really tough duty and so I want to give them double thanks.
    This summer, both Sharon and Nichole learned firsthand of 
the importance of statewide coordination of AMBER Alerts. On 
August 19, an AMBER Alert was sent out to a number of States to 
help search for Nichole, after she was abducted from her 
California home by the family's gardener. The suspect was 
apprehended in Nevada and Nichole was safely returned home.
    Sharon, let me thank you very much for being here and we 
would very much like to hear from you, followed by Nichole.

       STATEMENT OF SHARON TIMMONS, RIVERSIDE, CALIFORNIA

    Ms. Timmons. Thank you for having me. I was very honored to 
be invited here. I was very excited because I wanted to share 
with you that my life wouldn't be the same without AMBER Alert. 
So I wanted to thank everybody and just do something back for 
the other children.
    I was so excited I actually forgot I was afraid of flying. 
I was like, oh, what am I doing? But we made it, we did good, 
and I just wanted to let you know that I have been in Riverside 
for 25 years. I have lived in the same house for 19 years. I 
have the same neighbors. Up until 5 years ago, I used to be 
considered the new neighbor. That is how stable and nice our 
neighborhood is.
    And you just never think things will happen, and then all 
of a sudden you walk into the room--while I was opening up the 
door, even when I was opening the door I was thinking I didn't 
shut the door last night. And you just open the door and your 
whole life changes.
    She has a messy room and the room was a different kind of 
messy. The stuffed dog wasn't in the right place. It was on her 
bed. It is never on her bed. And the blankets were all 
different, just different. And you kind of really get lost in 
confusion, like ``hey.''
    We had a big deal the night before about what Barbie was 
going to wear to bed, and I was ``I want to go to bed, I want 
to go to bed now.'' And then you think, OK, what is a couple of 
minutes? We will fix Barbie up. And then to see Barbie not 
wearing the dress, flung around the room--everything was 
different.
    She is very much--Barbie sleeps here, Scooby Doo sleeps 
here, and everybody has to be put to bed. And just to walk in 
and see the bed and nothing is the same, it rocked my world, it 
did. Honestly, if it wasn't for the AMBER Alert, it would have 
shattered my world because I would have never gotten her back.
     Chairperson Feinstein. Tell us a little bit about what 
happened after that.
    Ms. Timmons. The police came; the original one came and 
asked me her description and what she was wearing and what kind 
of conversations we had, trying to determine was there any 
arguments or anything, so they had a place to look; where my 
ex-husband lived, people that I have been talking to lately, 
people that have been in my house lately, any work done in my 
house. They were overlapping lots of different situations that 
could have happened. They were making me think a lot, which 
really helped, because I could see that they were overlapping 
all different situations.
    The second gentleman that came, came to tell me about the 
bloodhound. They were taping off my house at the time, which is 
such a strange feeling to see the tape up. Then they told me 
that Patsy, the bloodhound, would be going into her room. They 
didn't want to mess up the evidence. So they were trying to 
make me feel calm about what they were doing. So they dog could 
be in her bed and get the smell of her.
    And then a lot of police came on motorcycles. I live on a 
little hill and they all kind of came up. I know this sounds 
strange. They didn't look like people; they looked like big 
army ants or robots or something, the way they pull up on their 
bikes. They all turn their wheel at the same time. All the 
lights went off right in a row and they all kind of kicked back 
on their bikes and got off their bikes all at the same time and 
walked up.
    I lost it because it was like ``oh, my gosh, it is so 
real.'' In your brain, you could push it aside and push it 
aside. No, no, something is not right here; maybe she is 
playing with a little boy, or something that you can relate to. 
But when you see them all walking up your driveway, it is like 
it is real, it is really real.
    Anyway, they actually took me across the street and they 
had lots of detectives asking me questions and they kept me 
busy. So there is a piece of it that is easier for me than 
sitting on the sidelines because they had me working, profiling 
people that I know, or situations, or thinking, thinking, 
thinking. I could tell that they were really working hard.
    I had this thing in my head that I could not cry; do not 
cry. I kept going over and over and over, and mix that up with 
empty cheetah print sheets and an open back door, and then you 
go back and forth and back and forth like a bad movie.
    So they had me across the street where I could be calm, and 
they would all come and talk to me and they would confer with 
each other. Then they told me that they were going to do the 
AMBER Alert, and at this period of time I had no concept of 
time.
     Chairperson Feinstein. How long did it take before they 
went to the AMBER Alert?
    Ms. Timmons. Well, the problem was her father went to the 
Philippines. Her father told me he was living Sunday evening. 
So I called the office right away and the office girl said, oh, 
no, he left this morning. So we had to get rid of that first 
because he could have just taken her and then we would know 
where she was. So we had to eliminate that.
    And then after that was eliminated, I guess a lady had 
called in to say that she took them personally to the airport 
and Nichole was not with them. They can eliminate that. Then it 
was on. They told me, OK, we are going to put it on, because I 
wanted to make sure I called my parents. I wouldn't call my 
parents because that makes it real. So once that happened, it 
seemed like minutes, but I am sure it wasn't. But it seemed 
like minutes.
    Once they told me, it seemed like I had talked to my mother 
for a while and the next thing I know, the man comes in and he 
has a big smile on his face and he is saying we have already 
gotten 200 phone calls. People were calling from all over and I 
couldn't believe the response.
    The calls were from people wanting more information of what 
they were looking for. I guess a gentleman at Sears had worked 
on the truck and he thought he would help with an additional 
description. He had a lift gate on the truck. And, of course, I 
didn't know what they were calling. I just heard there were 200 
calls. But there was a point where I remembered there was a 
lift gate.
    So oh, my gosh, I know the people would help the people 
better if they could find that one thing on the truck that is 
different than everybody. And when I told him, he says, oh, no, 
we already knew that an hour ago, because somebody had called 
in. So that gave them an extra jump.
     Chairperson Feinstein. And then how long was it after the 
alert went out when you knew Nichole was safe?
    Ms. Timmons. It had to be less than 3 hours. It was in the 
3-hour time--I am not really sure. I tried to ask a couple 
times what time things were because I really couldn't tell you 
if it was 5 minutes. Some aspects of your brain are going so 
fast and then slow motion. It was only hours. And it seemed 
like really it was only within the first half hour we got the 
200 calls because he came in just really positive.
     Chairperson Feinstein. Do you think Nichole now would be 
willing to tell us what happened to her? I don't want to push 
her. If she doesn't want to, that is fine.
    Ms. Timmons. Will it help if I get her started?
     Chairperson Feinstein. Don't push her. If she would like 
to, it would be helpful to us. If not, we understand.
    Ms. Timmons. She didn't want to talk about it a lot at all 
and she was pretty adamant about kids asking her questions. I 
don't know if it is OK if I say this, but 1 day we were 
driving, just a few days ago, and all of a sudden she blurted 
out something. She goes, ``Hey, mom, do you know you can cry 
all the way to your feet?'' And it was like, oh, my gosh, she 
was telling me how the tears just jump out and land on her 
feet.
    And I go, ``What do you mean?'' She goes, ``I was crying 
and crying and crying.'' Well, that kills me because the whole 
time she was gone, you don't know what is going on. I don't 
know how she feels. She hasn't said a lot.
     Chairperson Feinstein. Would you be prepared to say, 
without going into the facts of the case, that it had not been 
for the AMBER Alert that you may have lost her?
    Ms. Timmons. Oh, I know it, I know it. Based on what she 
has told me, they weren't coming back. I don't know exactly 
where they were going, but he is totally capable of living in 
the woods for a long time because of his background.
     Chairperson Feinstein. Well, thank you, thank you both 
very, very much.
    [The prepared statement of Ms. Timmons appears as a 
submission for the record.]
     Chairperson Feinstein. We will move on to Mr. Edward 
Fritts. Mr. Fritts come to us from the National Association of 
Broadcasters. He has held the position of President and CEO for 
the past 20 years. The Broadcasters represent more than 7,500 
local radio and television stations all over the country. He is 
a former owner of a group of small-market radio stations, where 
he learned the value of localism and community service 
performed by broadcasters. We know broadcasters play a major 
role in the AMBER Alert program.
    So, Mr. Fritts, we would love to hear your experience and 
any thoughts you may have.

 STATEMENT OF EDWARD O. FRITTS, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, NATIONAL ASSOCIATION OF BROADCASTERS, WASHINGTON, D.C.

    Mr. Fritts. Thank you, Madam Chair, Senator Hutchison, 
Senator Hatch, Senator Kyl. I am pleased to be here, and thank 
you for inviting me to be here and to support this legislation 
on behalf of the National Association of Broadcasters.
    As you mentioned, the NAB represents the local broadcast 
industry, with member stations in virtually every city and 
community in this country. We are pleased to support this 
legislation. We think that in recent weeks, all of us have 
learned that the issue has never been more relevant. 
Particularly following the poignant testimony that Sharon and 
Robbie have presented today, I think that all of us are very 
touched by the living experience that we have witnessed.
    We are also pleased that our colleagues in Texas originally 
developed this plan as the result of a tragic abduction and 
murder in their community. Since then, broadcasters have 
continued to play a central role in this plan, and we are 
pleased to continue that role by announcing our support for the 
National AMBER Alert Network Act of 2002.
    We believe this legislation can significantly accelerate 
the adoption of AMBER plans throughout the country. This 
voluntary AMBER plan harnesses the relationship between local 
stations and law enforcement to aid in the recovery of abducted 
children.
    As has been mentioned today, over 30 children have been 
recovered as a result of this particular plan, and I think all 
of us recognize that you can't put a value on a child's life. 
Every plan, of course, is unique to its own community, but 
there are three basic criteria that need to be met before an 
alert is activated.
    First, law enforcement confirms that a child has been 
abducted. Second, they affirm that the circumstances 
surrounding the abduction indicate that the child is in danger 
of serious bodily harm. Last, there must be enough descriptive 
information about the child, the abductor, or a suspect's 
vehicle to make an imminent broadcast alert productive.
    Broadcasters are uniquely positioned to disseminate this 
information rapidly to the entire community. No other industry 
is capable of broadcasters' reach in conveying this type of 
information.
    Consider this: while driving their vehicles, as many as 95 
percent of adult motorists listen to their local radio 
stations. This, coupled with television, means that local 
broadcasters have the ability to get the information to the 
public with unparalleled immediacy.
    Our partners at the National Center for Missing and 
Exploited Children have statistical evidence to back this case 
up. But as Robbie said, in the case of an abduction time is 
absolutely critical. As such, it only makes sense that we use 
our ability as broadcasters to assist law enforcement in the 
safe recovery of abducted children.
    Recognizing the value of this plan, NAB partnered with the 
Center and with the Justice Department to develop this AMBER 
Alert kit. It has been distributed to all broadcasters and to 
many law enforcement units around the country.
    When we began this effort, there were 28 AMBER plans in 
place last fall. Today, there are 55 community, State or 
regional plans, and we expect more to be rolled out by year's 
end. I believe the AMBER plan is especially significant because 
its growth and success have exemplified the twin traditions 
that have historically guided our industry, namely localism and 
commitment to public service.
    In terms of localism, the system has been effective 
precisely because it is flexible to the local community. 
Depending on the information that law enforcement provides, 
stations can send out alerts in a single community or 
statewide, or even regionally when interstate travel may be 
involved.
    Again, Madam Chair, our industry is proud today to endorse 
this legislation. However, anyone who has been in Washington 
for any length of time knows that good bills sometimes can be 
poorly implemented. So I would like to touch upon three 
principles that have guided the AMBER plan thus and that this 
legislation recognizes and we hope will continue.
    First, broadcasters are central to the plan because of our 
ability to disseminate this information on a moment's notice.
    Second, the AMBER plan remains voluntary and flexible, 
thereby allowing local law enforcement to work closely with 
local stations in each of our local communities.
    Third, it is critical that the plan be used only in cases 
of abduction where there is an imminent threat of harm.
    Let me reemphasize that we stand ready to work with you as 
this legislation moves through the Committee and through the 
Congress. As someone once said, children are the flowers of 
life. As a father and a grandfather of four myself, I could not 
agree more. Protecting the most valuable of our society, our 
children, must be a top priority for all of us.
    Thanks again for having me and I look forward to answering 
questions.
     Chairperson Feinstein. Well, let me just say thank you, 
and I think I speak for all the members present. The 
broadcasters are vital to this. I have heard some people sort 
of nip and tuck around the edges by saying, well, you are going 
to have an interruption of programs four times a day, five 
times a day; this thing will never last.
    But you know what the facts are and it is so important that 
your participation is as eager and as sensitive as it is. As 
you have mentioned, in this legislation there is a setting of 
national standards for what can constitute an AMBER Alert, so I 
think that problem.
    So thank you very much for the support.
    Mr. Fritts. I think it is just a matter of education. The 
more we get the word out, the more people will be supporting 
this.
     Chairperson Feinstein. That is right, so thank you very 
much.
    [The prepared statement of Mr. Fritts appears as a 
submission for the record.]
     Chairperson Feinstein. Next is Joseph Farrow. Joseph 
Farrow was recently selected as Deputy Commissioner--that is 
the No. 2 person--of the California Highway Patrol, which is a 
huge highway patrol and a very distinguished one. He continues 
his record with the Highway Patrol. He has been in the 
department for 22 years. He assists in the commanding of over 
10,000 employees and he also oversees California's Child Safety 
AMBER Alert Network.
    So I am very hopeful that you will tell us how California 
does it and any suggestions that you might have would be very 
welcome.
    Thank you, Mr. Farrow.

  STATEMENT OF JOSEPH FARROW, DEPUTY COMMISSIONER, CALIFORNIA 
             HIGHWAY PATROL, SACRAMENTO, CALIFORNIA

    Mr. Farrow. Good morning, Madam Chairwoman and Committee 
members. As the Chair said, my name is Joe Farrow. I am the 
Deputy Commissioner of the California Highway Patrol. It is an 
honor to appear before you this morning to discuss California's 
Child AMBER Network which has contributed to the safe recovery 
of several abducted children in the State of California. Our 
comprehensive AMBER program is a great source of pride for 
Governor Gray Davis, the California Highway Patrol, and law 
enforcement agencies throughout California.
    As many know, efforts to develop and disseminate tools for 
States to respond rapidly to stranger abductions have been 
underway for a few years. The original AMBER Alert program was 
named after 9-year-old Amber Hagerman, who was abducted and 
murdered in Arlington, Texas, in 1996.
    The nucleus of the California AMBER Alert Network is the 
Emergency Alert System, which can, with media assistance, 
temporarily preempt radio and television broadcasts and provide 
information to the public regarding a child abduction incident. 
To capture the attention of the public, the emergency messages 
are to be preceded and concluded with alert tones.
    In developing the California Child Safety AMBER Network, 
Governor Davis directed the California Highway Patrol to serve 
as the centralized point of contact for the statewide 
activation of the EAS system. The California Highway Patrol now 
has the equipment necessary to broadcast to all local law 
enforcement agencies or do a multi-regional activation of this 
system.
    The goal of our program is to bring the eyes and ears of 
millions of California residents together with law enforcement 
officials to maximize search efforts and ensure the safe 
recovery of abducted children. However, to ensure that the 
public remains sensitive to the activation of the system, an 
AMBER Alert will only be initiated in California when the 
investigating law enforcement agency has confirmed all of the 
following: first, that an abduction has occurred; second, that 
the victim of the abduction is 17 years of age or younger, or 
has a proven mental or physical disability; third, that the 
victim is in imminent danger of serious bodily injury or death; 
and, last, that there is information available that, if 
disseminated to the public, could assist in the safe recovery 
of the victim or apprehension of the suspect.
    This summer, the California Highway Patrol created a 
notification center which operates 24 hours a day, 7 days a 
week, which can assist local law enforcement agencies with the 
immediate initiation of a statewide AMBER Alert. Since 
California is a large State with an extensive system of 
highways, we have tied the system to a system that addresses 
our particular communication needs.
    Using our effective changeable message signs and our 
highway advisory radio system, we now transmit information to 
the motoring public regarding a confirmed child abduction case, 
which as proven invaluable in the realization of our basic and 
most fundamental goal, which is the safe return of children.
    The California system also activates the Emergency Digital 
Information Service. The Emergency Digital Information Service 
was created in 1989 following the Loma Prieta earthquake to 
improve communications and serve as a simple, comprehensive 
means to get detailed emergency information to the public. This 
service provide local, State and Federal law enforcement 
agencies with a direct computer link to media outlets and other 
agencies.
    Text messages may be sent via the State's law enforcement 
telecommunications system, while images and graphics may be 
sent over the Internet. Emergency Digital Information Service 
messages provide all relevant information regarding a child 
abduction, such as child information and suspect and vehicle 
descriptions, to other law enforcement agencies throughout the 
State and the media. This information can also be disseminated 
through text pagers to law enforcement officials and media 
representatives.
    Another tool we use is a computer-based system called 
Technology to Recover Abducted Kids, or otherwise widely known 
as TRAK. TRAK technology is an image-based system linking 
State, county and local law enforcement agencies. The TRAK 
system can capture and immediately distribute color photographs 
and images to thousands of law enforcement agencies, media 
outlets, hospitals, and private organizations. There are 
approximately 1,200 systems being used by various law 
enforcement agencies in 32 States. California alone has 488.
    Finally, we incorporate Internet sites as part of our alert 
system. Child abduction information, photographs and 
descriptions can be posted on Internet sites, including the 
California Highway Patrol media Web page that is accessed by 
media outlets throughout the State.
    We are learning much in our role as statewide coordinators 
for rapid response to child abduction cases. We continue to 
improve our system with deployment of additional TRAK systems, 
upgrading of alerting technologies, and training for law 
enforcement, the media and the public.
    We have found that partnerships with child abduction 
groups, such as the Klaas Foundation, the National Center for 
Missing and Exploited Children, media outlets, and organized 
highway user groups such as the California State Automobile 
Association and the commercial trucking industry, are key to a 
successful alerting system.
    We also recognize that we are very fortunate to have a 
Governor and congressional delegation that care about this 
issue and have provided us with the resources needed to rapidly 
consolidate and expand this program.
    The California Child Safety AMBER Network should be 
considered in developing a national model. Although the 
Emergency Alert System is a nationwide system which can and 
should be used as part of any child abduction notification 
process, we believe a comprehensive program which utilizes a 
variety of resources is critical to the development or 
deployment of any successful child abduction notification 
system.
    A national coordinator of AMBER Alert programs could prove 
beneficial, assuming they coordinate and do not mandate, and 
should be shaped with the input and assistance of State law 
enforcement and AMBER Alert coordinators.
    I was going to share with you a couple of examples--they 
are in my prepared notes--of some of the success cases that we 
had in California. But after meeting Nichole, I don't think I 
really need to do that. I would just add one thing that she 
left out. When that AMBER Alert went out, it went out statewide 
and it went out within the first hour after the abduction.
    The individual that saw this on the television was a motel 
owner in Hawthorne, Nevada. He saw the vehicle and immediately 
notified the Nevada Highway Patrol, which had an officer in 
position who apprehended the suspect and returned Nichole 
safely all within a few hours. If it wasn't for the AMBER Alert 
program, I fear the worst.
    So this is a success story. I have other stories in my 
prepared notes that you can read later. The incidents that you 
will see in my prepared notes highlight the benefit of a 
statewide, and in the case of Nichole, interstate notification 
system to recover abducted children.
    In California, this program is intended to unite all of our 
residents in the search for an abducted child. When a child is 
abducted and an AMBER Alert is initiated, every parent, media 
representative, police officer, highway worker, and member of 
the community are called into action. Although a comprehensive 
nationwide notification system cannot always guarantee a safe 
recovery in every instance, it significantly increases our 
chances of a safe and timely recovery.
    In short, we have an obligation to use every resource 
available in a coordinated and cooperative fashion to ensure 
the safety of our most precious resource--our children.
    Madam Chair, I thank you for the opportunity to testify 
before you and this distinguished Committee. I would be pleased 
to answer any questions that you might have.
    [The prepared statement of Mr. Farrow appears as a 
submission for the record.]
     Chairperson Feinstein. Thanks very much, Mr. Farrow. We 
appreciate your testimony.
    Now, last, but far from least, is Marc Klaas. I remember, 
because I was in California in 1993, the kidnapping and murder 
of his daughter. It was one of the first times we had ever seen 
someone come into a home, into a bedroom, and take a child. And 
it was such an egregious case, it was so heinous and horrendous 
that it really, I think, mesmerized the entire State, and there 
are very few of us who will ever forget Polly Klaas.
    The one good thing to come out of it really has been what 
Marc Klaas has done since, and that is to really dedicate his 
life to becoming, I think, a very eloquent and knowledgeable 
spokesperson, as well as the head of an organization called 
Klaas Kids that is really dedicated to the singular mission of 
stopping crimes against children. We need more people like him 
because this is what is going to make predators really think 
twice. His daughter was assaulted and murdered by perhaps the 
most vicious predator that I have ever seen.
    So, Marc, you are welcome here. We are delighted to have 
you. I thank you, and I know the Committee does, for all your 
work and we are very eager to hear your comments.

         STATEMENT OF MARC KLAAS, SAUSALITO, CALIFORNIA

    Mr. Klaas. Thank you, Senator, for those extremely kind 
words. I appreciate it, and I appreciate your steadfast support 
throughout the years.
    Before I get started, you know, Nichole, I know that it is 
sometimes very difficult to speak up in front of a situation 
like this, with the microphones and the lights and the 
extremely important people. But if an image is valued at a 
thousand words, then your presence here today is valued at life 
itself and I don't think you could have made a more eloquent 
statement than your mere presence in this room this morning.
    When my daughter, Polly, was kidnapped from her own bedroom 
in front of witnesses, the Petaluma, California, Police 
Department dispatched an all-points bulletin, stipulating that 
disbursement was not for press release. Unfortunately, another 
local agency interpreted that to mean that they should not 
notify deputies in patrol cars, as the press might monitor 
those frequencies.
    One hour after Polly was kidnapped, two local sheriff's 
deputies had the kidnapper in their custody. But because they 
were unaware that a crime had been committed, they helped him 
to pull his vehicle out of a ditch and sent him on his way 
instead of arresting him. We then spent the next 65 days 
searching for Polly.
    My goodness, we have come so far. When two Lancaster, 
California, teenagers were recently kidnapped at gunpoint, the 
responding agency pulled out all the stops and immediately 
alerted the media and the public by utilizing a variety of pre-
determined communication tools. That decision to implement what 
is commonly known as the AMBER Alert has been credited with 
saving the lives of those teenagers. As the Kern County Sheriff 
dramatically stated on television, ``The girls were within 10 
minutes of being murdered. The AMBER Alert saved their lives.''
    In the ensuing years since the implementation of the AMBER 
Alert in 1996, three distinct versions of the program have been 
adopted. Many States, like Utah--Texas does have an AMBER Alert 
now, actually, Senator. They implemented it with Nancy Chavez, 
the little 1-year-old who was kidnapped out of the Wal-Mart 
recently.
    California, Colorado, Oklahoma, Michigan, Pennsylvania--
those are all statewide systems. Some AMBER Alert programs, 
such as Cincinnati's Child Abduction Alert Program which 
includes parts of Ohio, Kentucky and Indiana, or the St. Louis 
Regional Abduction Alert which extends across the river into 
Bellville, Illinois, have adopted a more regional approach.
    Finally, more localized or city-based systems, like the 
original in Dallas-Fort Worth or the local Washington, D.C., 
AMBER Alert, serve the needs of young families and those in 
other American communities. Basically, these programs all have 
to be population-based and they have to be able to disregard 
the State borders.
    But despite growing pains and variations on the theme, the 
AMBER Alert has been credited with saving numerous children. As 
long as strict criteria are followed, the AMBER Alert can 
continue to evolve as an effective and powerful weapon in the 
war to rescue America's stolen children.
    I believe that common elements of the system have to 
include a couple of other things that have been mentioned: 
certainly that the child is 17 years of age or younger; the 
jurisdictional law enforcement agency believes that the child 
has been abducted--that is, unwillingly taken from their 
environment without permission from the child's parent or legal 
guardian. No. 3, there is reason to believe that the victim is 
in immediate danger of serious bodily injury or death.
    No. 4, it is confirmed that an investigation has taken 
place that verifies the abduction and has eliminated 
alternative explanations for the missing child. Finally, there 
is sufficient information available to disseminate to the 
public that could assist in locating the child, suspect, or 
vehicle used in the abduction.
    I think that the one exception that should be considered is 
cases of international abduction, when we know that the 
implementation of the Hague Convention is so very difficult and 
oftentimes those children are never recovered.
    Although there are those who complain that the attention 
paid to the issue of missing children during this so-called 
Year of Abduction is spreading fear throughout our society, I 
counter that the attention is appropriate. If statistics 
relating to crimes against children affected any other segment 
of our society, we would declare epidemic status, pass 
emergency legislation, and adopt a bunker mentality.
    Unfortunately, since the statistics apply to children, we 
accept this as status quo. Now, however, with the Nation's 
attention riveted on abductions, we have a better understanding 
of the issue and we are better prepared to respond in a variety 
of ways. For instance, just as an aside, we now know that 
stranger scenarios are not the only ones that pose a predatory 
risk to children.
    Our evolving attitude is further illustrated by recent 
AMBER Alert innovations. When the young women in Lancaster were 
kidnapped, the AMBER Alert concept was expanded through the 
utilization of electronic billboards that advertised a 
description of the getaway vehicle, including the license plate 
number, in more than 500 locations through California.
    This innovation was immediately adopted by the State of 
Texas as an important component of their newly created AMBER 
Alert system. I predict that other States will quickly follow 
suit and the use of electronic highway signs will soon be 
utilized throughout the country.
    I have also personally been approached by truck drivers, 
gas station and convenience store owners, and others who are 
eager to become proactively and officially involved in the 
AMBER Alert.
    Now that the FCC has authorized the use of the Emergency 
Alert System for missing child alerts, further innovations are 
occurring. As the commissioner said, the Emergency Digital 
Information Service in California can immediately activate 
50,000 communication devices, including cell phones, e-mail 
accounts, and pagers of citizens who voluntarily participate 
when an AMBER Alert is activated. Where this idea takes us next 
is limited only by imagination.
    I believe that the next logical step in the evolution of 
the AMBER Alert is to extend it across the country with broad-
based local, regional, statewide and Federal support. Society 
will be best served when a system that disregards State 
borders, focuses on logical population centers, and extends 
from the Golden Gate Bridge to the Statute of Liberty, and from 
Galveston, Texas, to Bangor, Maine, is fully implemented.
    This goal is best achieved through realization of an 
Internet-based system that establishes a standardized 
communication platform and utilizes existing hardware and 
software. This approach is cost-effective and easily 
implemented with a minimal investment.
    Although the AMBER Alert concept has been in existence for 
7 years, it is only now gaining the recognition that it 
deserves. When the Kern County Sheriff dramatically declared 
the impending doom of the young Lancaster women on ``Larry King 
Live,'' America suddenly realized the power of the AMBER Alert.
    When three more children, one of whom is sitting with us 
today, were quickly recovered through subsequent AMBER Alerts, 
America experienced a social epiphany, realizing for the first 
time that there are occasions on which we can beat evil on its 
own turf and that not every child taken by an abductor is a 
doomed child.
    The attention currently being paid to this important 
program will surely pass. However, if we continue to buildupon 
current successes that have been achieved, then none of the 
recent victims of predatory abduction will have died in vain. 
Our timeframe may be short and our attention span may be easily 
diverted, but we will succeed if we seize the moment.
    I want to thank Senators Hutchison and Feinstein--the women 
always step up to the plate--for authoring and supporting AMBER 
Alert legislation. Their effort elevates the AMBER Alert debate 
in important ways. They are advocating and promoting a 
successful weapon in the battle to recover kidnapped children. 
You are setting an important precedent that can be duplicated 
throughout the country. You are seizing the moment.
    Madam Chairman, members of the Committee, the entire 
Senate, the entire Congress, and the entire country--I urge 
everybody to support this important legislative effort, for if 
it becomes law--and I cannot say this in more definitive 
terms--children's lives will be saved.
    Thank you for your time.
    [The prepared statement of Mr. Klaas appears as a 
submission for the record.]
     Chairperson Feinstein. Thank you very much, Marc, and 
thank you, ladies and gentlemen, for your testimony. I think it 
has been very, very helpful.
    Senator Hutchison has other things to attend to and so I 
just want to thank her for sitting with the Subcommittee today. 
We appreciate it very much, and again thank you for your 
leadership.
    Senator Hutchison. Thank you. Every one of you contributed 
something very significant to our process and we appreciate it.
     Chairperson Feinstein. Now, just a few questions.
    Marc, let me ask you this. You mentioned that the person it 
is hard to even think of him as a person--who murdered your 
daughter had his car run into a ditch and the police actually 
helped him out.
    Was there sufficient evidence, do you think, at the time 
whereby an AMBER Alert would have been useful in that 
situation?
    Mr. Klaas. Senator, I believe that if an AMBER Alert had 
been activated--and this could have been done very, very 
quickly--he may not ever have arrived at that location. It was 
20 miles from the location where Polly had been kidnapped and, 
as you know, Sonoma County has quite a few cities. It has a 
rather large sheriff's department and on a Friday night there 
are a lot of deputies out and there are a lot of cars out on 
the road. So I think he wouldn't have gotten to that location.
    We will never know if Polly was alive when the deputies 
finally did arrive. Certainly, he says that she was, but 
anything that that individual would have to say is totally 
self-serving.
     Chairperson Feinstein. You are saying, then, that he went 
back after that and killed her?
    Mr. Klaas. He came back and recovered her after that, yes, 
ma'am. In what state I don't know.
     Chairperson Feinstein. Well, thank you very much.
    Let me ask just one question and then I would like to turn 
it over to Senator Kyl. My understanding that stranger 
abductions still, despite everything that we see and read, are 
relatively rare. For example, there were 57 witnessed child 
abductions by a stranger in California in 2001. The National 
Center for Missing and Exploited Children tracked 1,529 
kidnappings involving parental abductions.
    So my question to you, Mr. Callaway, and others on the 
panel is would it make sense to include parental abductions in 
AMBER Alerts?
    Mr. Callaway. I think only in the case that it can be 
established that the child is in danger. To be honest with you, 
I think that if you included the broad-based parental 
abductions, many times those children are not in immediate 
danger and the AMBER Alert would get over-used. I think that is 
the fear that some people have. Now, there are some cases in 
parental abduction that that child is in great and imminent 
danger, and if the police have determined that, then I think it 
should be used.
     Chairperson Feinstein. Does anybody disagree with that? 
Marc?
    Mr. Klaas. I don't disagree, but I think that we should 
totally recategorize the issue. For instance, of the recent 
abductions, Danielle vanDam, Ashley Pond, Miranda Gaddis, 
Elizabeth Smart, Cassandra Williams, Nichole, and Nicholas 
Farber were all thought to have been victimized by neighbors or 
acquaintances, but in most of these cases they were predatory 
situations.
    We should activate AMBER Alerts whenever a predatory 
situation is in play, and I think it does a disservice by 
calling it stranger abductions because none of these children 
would have applied in those kinds of situations. Yet, as we now 
know, the vast majority, if not all of them, their lives were 
very, very much in danger.
     Chairperson Feinstein. So what are you saying?
    Mr. Klaas. What I am saying, Senator, is I don't think we 
should be categorizing the abductions of children as stranger 
and non-stranger situations. I think we should be categorizing 
them as predatory and non-predatory. I know so many families 
that are broken-hearted because some perverted uncle decided to 
have his way with his little niece by marriage.
     Chairperson Feinstein. That is an excellent point, I 
think.
    Mr. Callaway?
    Mr. Callaway. We don't classify them as stranger 
abductions. It is non-family abductions, is what we would call 
it. The stranger/danger thing has never been anything that the 
National Center has used.
     Chairperson Feinstein. Mr. Farrow, do you have a view on 
that?
    Mr. Farrow. Yes, I do. The way the AMBER system works in 
California is we classify it as just an abduction, and that is 
the first criteria. Is the child abducted? If it is by a 
parent, the next criteria says if the child is in immediate 
danger of serious bodily injury or death. Then we will activate 
the AMBER system. I think that is what Mr. Callaway was talking 
about, but that is the second criteria. Is the child is in 
danger?
    They are not always in danger of physical harm when you 
have a parental abduction. Sometimes it is a custody battle, so 
we have to make sure that we understand. So we leave that up to 
the investigating agency that first arrives on the scene to 
make that determination. So we have crafted criteria that we 
use, the four components, to make sure that the system is not 
over-used.
     Chairperson Feinstein. Senator Kyl, this legislation 
leaves up to the Justice Department the setting of minimum 
standards for use, which really become very important in this 
kind of a conversation. What are the standards? So I think it 
is very important, because I think we have a reasonable 
certainty that this bill is going to pass, that people weigh in 
with the Justice Department who are knowledgeable to see that 
the standards are such that it covers the spectrum properly.
    Senator would you like to ask questions?
    Senator Kyl. Thank you, Madam Chairman. I think the record 
of this hearing will help to establish for the Justice 
Department the foundation for these decisions, and I think the 
point that you made, Mr. Klaas, is very well taken.
    The only question that I had--and it is predicated on the 
foundation for this Subcommittee's jurisdiction, the use of 
technology in law enforcement. We are just seeing so many new 
ways in which technology can be used, and because time is of 
the essence in these particular kinds of crimes, the use of 
this technology then enhances law enforcement's opportunities 
significantly.
    What we are trying to do here, as I understand it, is to 
acknowledge the interstate nature of these crimes, frequently, 
including in your case, and therefore to have a system which is 
uniform which all law enforcement understands and therefore can 
implement quickly, and also to take advantage of the different 
media of communication--the broadcasters, the signs that we see 
above the highways, usually operated by the State department of 
transportation, whoever that might be, but to coordinate that 
with the local communities, as well.
    I think it is great and a testament to the volunteer spirit 
of this country that this system basically developed without 
government prodding. But there is a point at which the 
Government, because of the interstate nature of the problem, 
and so on, can now assist in bringing this to fulfillment. And 
that is what this legislation, as I understand it, is really 
designed to do, and with the specific involvement of the 
Department of Justice, it does have a nationwide reach.
    I was going to ask one question of Mr. Farrow, but anybody 
would be able to jump in here, whether there are any other 
media here that perhaps we are overlooking in terms of getting 
the message out in a very quick way that has the broadest 
application to the citizenry.
    Is there something that we are not focused on here that in 
your law enforcement experience we could add to the mix?
    Mr. Farrow. I think in California alone, we have covered 
most of the media. But when we go national, I think one of the 
things that we have to look at and I would expect the 
Department of Justice to look at is the NLETS, the National Law 
Enforcement Telecommunications System, to make that if there is 
abduction, say, in California that it is put into this system 
so it goes nationally from minute one. In California, you could 
literally be in Arizona or you could be in Nevada or you could 
be in Oregon in just a matter of minutes, depending upon what 
location you go from. So I think that is the first part.
    There are other technologies that are now going on the 
market that we are looking at and that we are trying to do the 
research on to find out their applicability to what we have. So 
I would imagine that as the bill goes forward or the bill is 
signed and the Department of Justice steps forward that there 
would be some way that local law enforcement and the States can 
get together and actually discuss some of those technologies so 
it is standardized, so if we use something it in California, 
they use it Texas or they use it in Oklahoma, so we are not all 
just piecemealing the system. So that is why the bill, to us, 
is so enticing because it does bring it all together so we are 
all working together versus independently.
    Senator Kyl. Marc?
    Mr. Klaas. I believe that the Internet could be an 
extremely powerful tool in implementing a national AMBER Alert 
simply because it does create a standard platform that can be 
utilized by all agencies. And if it is a password-protected 
system, then it can be accessed from any browser-based computer 
that sits on a table.
    I think e-mail also would be a good way to disseminate 
information because one can freely and instantaneously transmit 
the highest graphic text and image information to virtually 
anywhere in the planet within moments.
    Senator Kyl. Those are all great suggestions. Again, I 
think the record of this hearing will help the Justice 
Department appreciate what we intend with respect to the 
implementation here. Obviously, it is an ongoing process, so 
your continued input will be enormously helpful.
    Again, Madam Chairman, I really appreciate your very quick 
scheduling of this hearing. I have already expressed to Senator 
Hutchison how much I appreciate her leadership, too.
    I appreciate all of you being here and I certainly agree 
with Marc Klaas that just having Nichole here is a great 
inspiration to all of us.
     Chairperson Feinstein. Senator, you have raised a good 
question because Senator Clinton was saying at the press 
conference yesterday that, for example, ticker tapes and things 
like that that flash up--every State has different ways. I 
gather there is advertising in New York for the State lottery 
that flicks up. All those kinds of things have to be involved 
in it, as well. So I think we have to be very flexible to see 
that we keep adding to the compendium of media exposure so that 
we can get the broadest possible attention.
    Marc?
    Mr. Klaas. Yes, Senator. We have been approached by gas 
stations, we have been approached by convenience stores. These 
are huge data bases of industry, I guess, that could be 
involved in this very easily. By faxing a flyer of a missing 
child to a convenience store or a gas station and putting that 
up in the window, it can be of huge benefit because even 
kidnappers have to stop for gas and even kidnappers have to 
stop for food on occasion.
     Chairperson Feinstein. That is a good point.
    Does anyone else have a comment they would like to make 
about the legislation before we end the hearing?
    If not, then let me just thank everybody once again. I 
think the legislation will move. We are very grateful to you, 
and for more than just being here today, but really grateful 
for your care and concern on this issue and the fact that it 
has been longstanding and continuing and will continue. We can 
stop these things if we all come together.
    So thank you, and this hearing is adjourned.
    [Whereupon, at 11:23 a.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]
    [GRAPHIC] [TIFF OMITTED] T7718.001
    
    [GRAPHIC] [TIFF OMITTED] T7718.002
    
    [GRAPHIC] [TIFF OMITTED] T7718.003
    
    [GRAPHIC] [TIFF OMITTED] T7718.004
    
    [GRAPHIC] [TIFF OMITTED] T7718.005
    
    [GRAPHIC] [TIFF OMITTED] T7718.006
    
    [GRAPHIC] [TIFF OMITTED] T7718.007
    
    [GRAPHIC] [TIFF OMITTED] T7718.008
    
    [GRAPHIC] [TIFF OMITTED] T7718.009
    
    [GRAPHIC] [TIFF OMITTED] T7718.010
    
    [GRAPHIC] [TIFF OMITTED] T7718.011
    
    [GRAPHIC] [TIFF OMITTED] T7718.012
    
    [GRAPHIC] [TIFF OMITTED] T7718.013
    
    [GRAPHIC] [TIFF OMITTED] T7718.014
    
    [GRAPHIC] [TIFF OMITTED] T7718.015
    
    [GRAPHIC] [TIFF OMITTED] T7718.016
    
    [GRAPHIC] [TIFF OMITTED] T7718.017
    
    [GRAPHIC] [TIFF OMITTED] T7718.018
    
    [GRAPHIC] [TIFF OMITTED] T7718.019
    
    [GRAPHIC] [TIFF OMITTED] T7718.020
    
    [GRAPHIC] [TIFF OMITTED] T7718.021
    
    [GRAPHIC] [TIFF OMITTED] T7718.022
    
    [GRAPHIC] [TIFF OMITTED] T7718.023
    
    [GRAPHIC] [TIFF OMITTED] T7718.024
    
    [GRAPHIC] [TIFF OMITTED] T7718.025
    
    [GRAPHIC] [TIFF OMITTED] T7718.026
    

</pre></body></html>
